DOE/IG-0447




         AUDIT
        REPORT

                                            THE
                                U.S. DEPARTMENT OF ENERGY'S
                                 AUDIT FOLLOW-UP PROCESS




                                              JULY 1999




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
                                                July 7, 1999


MEMORANDUM FOR THE SECRETARY

FROM:          Gregory H. Friedman
               Inspector General

SUBJECT:      INFORMATION: Report on "The U.S. Department of Energy's Audit Follow-up
             Process"

BACKGROUND

Audit follow-up is an integral part of good management. According to Office of Management and Budget
(OMB) Circular A-50, corrective action taken by Departmental officials on audit findings and
recommendations is essential to improving the effectiveness and efficiency of Government operations. Over
the past several years, the Office of Inspector General (OIG) has issued reports addressing a variety of
Departmental challenges. Management is responsible for taking prompt and effective corrective action on
those issues where Departmental concurrence has been obtained. The objective of this audit was to
determine if the Department has made progress in correcting weaknesses previously disclosed through audit.

RESULTS OF AUDIT

Although some problem areas had been addressed, the Department needs to act more promptly and
effectively to correct weaknesses identified by audit. This audit examined actions taken by management to
address findings and recommendations made by the OIG in three areas--personnel security clearances,
personal property management, and quality assurance laboratory testing. Security clearance issues had only
been partially resolved. Personal property problems had been addressed, but only after considerable time had
elapsed. Quality assurance laboratory weaknesses had not yet been corrected.

The Department's audit follow-up system tracked corrective actions reported by management. However, the
system did not verify that implemented actions addressed the underlying control weakness, and the system
did not share information on potential weaknesses across the Departmental complex. Further, the impetus
for corrective action usually took place outside of the formal audit follow-up process. To address these and
other issues, we are recommending the adoption of a more proactive management approach to audit follow-
up. This report recommends enhancements to the system to ensure that operational economies and
efficiencies, agreed to by management, are implemented in a prompt and effective manner.

MANAGEMENT REACTION

The Chief Financial Officer expressed general agreement with the findings and recommendations. He
advised that senior management has recently placed renewed emphasis on resolution and follow-up of audit
findings and that the OIG recommendations in this report would strengthen the Department's process.
Management's verbatim comments are set forth in Appendix 5.

Attachment

cc: Deputy Secretary
    Under Secretary
The U.S. Department Of Energy's Audit Follow-up Process




TABLE OF
CONTENTS




                   Overview

                   Introduction And Objective .................................................................1

                   Conclusions And Observations ............................................................2


                   Audit Follow-up Process

                   Details Of Finding ..............................................................................4

                   Recommendations And Comments ......................................................9


                   Appendices

                   1. Scope And Methodology.............................................................12

                   2. Actions On Office Of Inspector General Audit Reports ...............14

                   3. Prior Office Of Inspector General Reports...................................15

                   4. Guidance On Federal Agency Follow-up Systems........................18

                   5. Verbatim Management Comments...............................................20
Overview

INTRODUCTION AND   Audit follow-up is a key component in management's efforts to have
OBJECTIVE          efficient and effective Government operations. The Office of
                   Management and Budget (OMB) has assigned each Federal agency the
                   responsibility for fully addressing control weaknesses and ensuring the
                   completion of agreed-upon actions.

                   Each year the Department receives an average of 100 Office of
                   Inspector General (OIG) reports, which address financial, economy and
                   efficiency, and programmatic issues that impact its operations. The
                   Department reported, as of September 30, 1998, that corrective actions
                   were still in progress on 72 audit reports dating back as early as Fiscal
                   Year (FY) 1988. The agreed-upon savings for these 72 reports were
                   $129 million, $92 million of which is dependent upon the outcome of
                   litigation or an appropriation from the Congress. In addition, some
                   reports recommended enhancements to the control structure that would
                   assist in the achievement of programmatic goals. Appendix 2 presents a
                   schedule from the Department's FY 1998 Accountability Report that
                   summarizes the status of actions taken or planned on OIG audit reports.

                   To facilitate the correction of weaknesses, the Chief Financial Officer
                   (CFO) serves as the Department's audit follow-up official. The CFO is
                   responsible for developing, implementing, and maintaining the
                   Department's follow-up system. Specific responsibility for implementing
                   corrective actions is assigned to the agency official to which audit
                   findings and recommendations pertain. As part of the audit follow-up
                   process, the head of the applicable element is required to prepare a
                   specific plan of corrective action with appropriate target dates for
                   implementing all accepted recommendations.

                   The Departmental Internal Control and Audit Review Council
                   (DICARC) assists in the resolution and follow-up process and consists
                   of the CFO and representatives of senior management. The DICARC is
                   charged with resolving major disagreements, providing guidance on
                   corrective actions to be taken, and requiring additional corrective action
                   when reported actions are not sufficiently responsive to audit findings
                   and recommendations.

                   The OIG periodically evaluates the audit follow-up process to determine
                   if it promotes prompt and effective corrective action. Over the past
                   several years, the OIG has issued reports addressing a variety of
                   concerns relating to personal property, security clearances, and quality
                   assurance laboratory testing. Because of the operational importance of



Page 1                                                         Introduction And Objective
                  these areas, progress in correcting previously reported systemic
                  conditions is critical to the achievement of the Department's goals. The
                  objective of this audit was to determine if the Department has made
                  progress in correcting weaknesses previously disclosed through audit.


CONCLUSIONS AND   While some problem areas had been addressed, the Department needs
OBSERVATIONS      to act more promptly and effectively to correct weaknesses identified
                  by audit. This audit examined three areas–personnel security, personal
                  property management, and quality assurance laboratory testing–in
                  which the OIG recommended corrective actions. In the area of
                  personnel security, the Department achieved mixed results. Blanket
                  clearance policies were eliminated and individual clearance requests
                  were more closely monitored. However, significant problems remained
                  in processing clearances and performing reinvestigations. In the area of
                  personal property, the Department made significant progress. Most
                  contractor property management systems had been approved, and
                  improvements had been made in inventory and records management as
                  well as the disposal of excess personal property. However, it took
                  considerable time for the Department to recognize the systemic nature
                  of these issues. With reference to quality assurance evaluations of
                  external laboratories, the Department was not successful in correcting
                  the reported weakness. Despite an audit recommendation made in
                  1995, the Department and its contractors continued to conduct
                  overlapping and, in some cases, redundant evaluations of third-party
                  laboratories.

                  To address these issues and to ensure that the audit follow-up system
                  promotes prompt and effective corrective action, we recommended that
                  senior management emphasize the importance of the audit follow-up
                  system. We also recommended that the CFO establish a plan to ensure
                  that corrective actions are taken and analyze audit recommendations for
                  trends and system-wide issues that need to be considered from a
                  Departmental perspective. In addition, we recommended that the
                  Assistant Secretary for the Office of Nonproliferation and National
                  Security (NN) and the Office of Environmental Management (EM)
                  correct previously identified weaknesses.

                  In addition to the areas examined in detail during this audit, we noted
                  that at least three other recent reports issued by the Office of Inspector
                  General contain repeat findings.




Page 2                                                  Conclusions And Observations
         • In March 1999, we issued a report on Vehicle Fleet Management at
           the Idaho National Engineering and Environmental Laboratory,
           (WR-B-99-02) noting that 45 percent of Idaho's light vehicles were
           used significantly less than established mileage standards. This
           repeated a 1993 finding that 41 percent of Idaho's light vehicles were
           underutilized.

         • Our January 1999 report on Aircraft and Air Service Management
           Programs, (DOE/IG-0437) contained a repeat finding, from a 1994
           report, that air service costs paid by the Albuquerque Operations
           Office were excessive.

         • In our December 1998 report on Transportation Safeguards Division
           Courier Work Schedules and Escort Vehicle Replacements, (WR-B-
           99-01) we noted that nuclear materials couriers earn more overtime
           pay and incur more unproductive time than necessary. This report
           repeated an April 1995 finding.

         In our opinion, the matters discussed in this report should be considered
         by management when preparing its yearend assurance memorandum on
         internal controls. A listing of prior OIG audit reports in the areas of
         personal property, security clearances, and quality assurance laboratory
         testing is set forth in Appendix 3.



                                               ________/S/____________
                                               Office of Inspector General




Page 3                                          Conclusions And Observations
Audit Follow-up Process

Implementation Of    In the three areas reviewed–personnel security, personal property
Corrective Actions   management, and quality assurance laboratory testing–corrective actions
                     were not always taken in a prompt and effective manner.

                                        Personnel Security Clearances

                     The Department achieved partial success in addressing weaknesses in its
                     personnel security program. The number and level of clearances were
                     reduced, but problems remained in processing initial clearances and
                     reinvestigations.

                     The OIG issued numerous reports in the late 1980s and early 1990s
                     indicating that individuals who did not specifically require access to
                     classified material were granted clearances. A Departmentwide report,
                     issued in March of 1993, recommended the discontinuance of blanket
                     clearance policies at field sites, closer scrutiny of individual clearance
                     requests, and the adoption of a long-range strategy to manage the
                     number and level of security clearances granted.

                     Since FY 1993, there has been a substantial drop in the number and level
                     of security clearances. At that time, the Department had approximately
                     155,000 active security clearances. This number declined to 105,000 at
                     the end of FY 1998, or a 32 percent reduction. The decrease was due in
                     part to the implementation of the audit recommendations. Departmental
                     officials eliminated "blanket" clearance policies and more closely
                     scrutinized individual clearance requests. The decrease was also due to
                     a reduction in Federal and non-Federal employment levels. Between
                     FYs 1993 and 1998, total Federal and operating contractor employee
                     levels declined by 21 and 27 percent, respectively.

                     The 1993 report also indicated that there were problems in processing
                     clearances. The average timeframe to process cases, after the
                     investigative report had been received, exceeded the Office of Personnel
                     Management standard of 90 days. This resulted in reduced employee
                     productivity, added program costs, and increased security risks. The
                     report also indicated that, as of July 1992, about 4 percent or 5,500
                     cases, of individuals with "Q" clearances, were overdue for their
                     reinvestigation.

                     Limited success was achieved in addressing clearance processing and
                     reinvestigation issues. The Department developed processing
                     timeframes, but did not implement a mechanism to determine whether



Page 4                                                                     Details Of Finding
         the 90-day standard was met. In addition, the reinvestigation backlog
         increased. As of October 1, 1998, approximately 9 percent, or 6,024
         individuals, of the "Q" level population, were overdue for their
         scheduled clearance reinvestigation. Management attributed the
         backlogs to (1) the quality of work performed by the investigative
         agency and (2) the limited budgetary resources available to support the
         security clearance program.

         At the beginning of FY 1999, with congressional approval, the
         Department decentralized funding for clearance investigations. The
         purpose of the change was to encourage Departmental activities to
         operate more efficiently and assess their own clearance needs. Since this
         change was only recently started, sufficient data was not available to
         determine the success of this initiative.

         Subsequent to the completion of audit fieldwork, the Department issued
         its 23rd Annual Report to the President on the Status of Safeguards and
         Security at Domestic Nuclear Weapon Facilities. The report outlined a
         series of measures being taken to strengthen the Department's security
         program. Among those measures was an action item to eliminate the
         reinvestigation backlog.

                            Personal Property Management

         The Department made progress in addressing personal property
         management issues. However, the recognition of the systemic nature of
         these problems and their correction took considerable time and effort.

         The OIG issued its first property management audit report in 1985. By
         1994, 27 audit reports related to property management had been issued.
         The results of these reviews were documented in a 1994 summary
         report. This report, as well as the earlier reports, identified three major
         problem areas: (1) review and approval of contractor property
         management systems, (2) inventory management, and (3) property
         disposal. The OIG reported that contractor property management
         systems at Lawrence Livermore National Laboratory, Lawrence
         Berkeley Laboratory, and the Stanford Linear Accelerator Center had
         not been approved. Several other Department contractors were also
         operating without approved property management systems. The OIG
         also reported that Richland's contractor did not conduct the required
         physical inventory of equipment until 5 years after assuming control of
         the facility. Another report cited inadequate storage and control of



Page 5                                                         Details Of Finding
         excess personal property and the improper disposal of property at the
         Sandia National Laboratories.

         The program manager responsible for this area indicated that
         congressional hearings, in 1994, heightened Departmental awareness of
         property management matters. In response to the issues raised, the
         Department designated personal property as a material weakness in its
         FY 1993 report to OMB. By the end of FY 1998, the Department
         concluded that it had made significant progress and removed the
         material weakness designation.

         Our analysis confirmed that progress had been made since the issuance
         of the summary report. As of February 1999, all the management and
         operating contractors, except for Lawrence Berkeley Laboratory and the
         National Renewable Energy Laboratory, had received approval of their
         property systems. Also, improvement had been made in inventory
         management. For example, in 1997, the Richland contractor conducted
         a complete inventory of its assigned Government property and
         accounted for nearly 100 percent of the inventoried items. Property
         inventories or statistical testing were also conducted at Sandia National
         Laboratories, Los Alamos National Laboratory, and the Idaho
         Operations Office with similar results. Corrective actions, in addition,
         were taken to dispose of excess property.

                        Quality Assurance Laboratory Testing

         The Department was not successful in coordinating Departmental and
         contractor reviews of commercial analytical laboratories. These
         commercial laboratories test samples related to the environmental
         management activities and worker health and safety programs. While
         individual field sites attempted to coordinate their activities, the
         Department did not put in place, as planned, a centralized approach to
         reviewing analytical laboratories.

         In June 1995, the OIG reported that Departmental contractors had
         conducted multiple evaluations of some laboratories, applied quality
         assurance evaluations inconsistently, had not evaluated the quality of
         some commercial laboratories and had not communicated results of their
         reviews to other contractors. In response to the audit report,
         management agreed to adopt a third-party laboratory accreditation
         program, or an alternative approach, and develop specific evaluation
         procedures to correct this situation.



Page 6                                                       Details Of Finding
                           In FY 1996, management worked to develop new guidance and policies.
                           The following year, management worked with state authorities and other
                           Federal agencies to develop nationwide accreditation standards. At the
                           beginning of FY 1998, the Office of Environmental Management moved
                           responsibility for this function to Idaho where it was renamed as the
                           National Analytical Management Program. However, as of March 31,
                           1999, no Departmental third-party accreditation program was adopted.

                           As a part of the current audit, a survey of 18 analytical laboratories was
                           conducted to determine the amount and extent of quality assurance
                           reviews conducted by the Department and its contractors over the last 3
                           fiscal years. The survey found that all 18 analytical laboratories had
                           been examined. However, many of the reviews appeared to be
                           redundant and unnecessary. For example, one laboratory manager
                           advised that, during FYs 1996-98, his laboratory had been subject to 10
                           quality assurance reviews. Most of these reviews were duplicative since
                           the same technical and administrative areas were examined each time an
                           evaluation was performed.

                           The methodologies used by the Department and its contractors were
                           also inconsistent. To illustrate, a manager at a commercial laboratory
                           reported that a "checklist" approach was used in conducting many of the
                           reviews. These checklists, however, were not standardized. Further,
                           the results of these evaluations were not formally shared with other
                           Departmental contractors performing similar reviews.

Requirements For Audit     OMB Circular A-50, "Audit Followup," and DOE Order 2300.1B,
Resolution And Follow-up   "Audit Resolution and Followup," established policies and procedures
                           for addressing audit recommendations. Agencies must maintain follow-
                           up systems to ensure the prompt and proper resolution and
                           implementation of both monetary and non-monetary audit
                           recommendations.

                           In the Department of Energy, the CFO is responsible for ensuring that
                           the audit follow-up systems are in place, that timely responses are made
                           to all audit reports, and that corrective actions are actually taken. The
                           CFO reviews Departmental Audit Report Tracking System (DARTS)
                           reports and assesses whether corrective actions taken or planned are
                           timely and responsive to audit findings and recommendations. In
                           addition, the CFO is required to conduct independent reviews to
                           determine if corrective action meets the intent of the recommendation to



Page 7                                                                          Details Of Finding
                           ensure adequate closure. The CFO should also periodically analyze
                           audit follow-up activities to determine trends and system-wide problems
                           and recommend solutions. When disagreements between management
                           officials and the OIG persist about proposed corrective actions, the CFO
                           may convene a meeting of the DICARC to attempt to resolve such
                           differences.

                           Management officials within the Department are responsible for
                           analyzing audit reports and providing timely responses to the audit
                           organization. Under the Circular, management is responsible for
                           completing actions, in a timely manner, on audit recommendations
                           where agreement has been reached. Management is also required to
                           provide formal status updates to the DARTS until audit reports are
                           closed.

Insufficient Emphasis On   Problems in the audit follow-up system inhibited prompt and effective
Audit Follow-up            resolution of previously reported weaknesses. While the CFO tracked
                           and communicated the status of individual reports to Departmental
                           managers, senior management did not fully emphasize audit follow-up
                           issues. Although the DICARC met annually to discuss weaknesses
                           reported under the Federal Managers' Financial Integrity Act, it did not
                           play an active role in monitoring major corrective actions. In addition,
                           the CFO did not conduct periodic analyses of audit recommendations,
                           resolution, and corrective actions. According to OMB Circular A-50,
                           this should be done to determine trends, identify system-wide problems,
                           and recommend solutions. In August 1987, the Under Secretary
                           distributed to all Departmental elements a compendium of audit reports
                           identifying potential areas of vulnerability. The Under Secretary
                           requested that each field element (1) assess its own operations to
                           determine the applicability of any of the audit recommendations and (2)
                           use the results to identify opportunities to enhance operations. It was
                           anticipated that similar broad-based analyses would be provided in the
                           future, but this was not done.

                           Additionally, recent staffing and mission changes within the
                           Headquarters audit liaison office preempted the CFO's ability to review
                           and follow-up on corrective actions. For example, staffing problems
                           occurred when the compliance and audit liaison functions were
                           separated and the number of personnel assigned to the audit follow-up
                           function was substantially reduced. In addition, the number and extent
                           of CFO field reviews decreased. The CFO chose instead to rely on
                           programmatic and functional managers to assess and report on the status



Page 8                                                                         Details Of Finding
                     of their corrective actions. This was done in conjunction with the
                     Department's implementation of its Business Management Oversight
                     Process.

                     We also noted that the CFO had established one specific and usable
                     performance measure associated with audit follow-up. This measure
                     related to correcting deficiencies reported in financial statement audits.
                     More could be done. The Government Performance and Results Act
                     of 1993 requires agencies to establish such measures in order to
                     compare actual performance to programmatic goals. OMB Circular
                     A-50 contains eleven audit follow-up standards (see Appendix 4),
                     which could serve as the basis for Department performance measures
                     aimed at improving the speed and effectiveness of corrective actions.

Potential Benefits   Without a more planned and proactive approach to audit follow-up,
                     the Department cannot ensure that agreed-upon actions–currently
                     covering 72 open audit reports issued as early as 1988 with $129
                     million in potential savings–will be implemented. The three areas
                     discussed in this report--personnel security, personal property
                     management, and quality assurance laboratory testing--posed problems
                     for management and the delays to implement the corrective actions
                     increased management's vulnerability and costs. For instance,
                     inattention to reducing clearance processing and reinvestigation
                     backlogs increased security risks and program costs. Similarly, the
                     delayed attention to personal property increased the quantity and cost
                     of inventory. Finally, failure to implement a third-party accreditation
                     program resulted in increased costs for commercial analytical
                     laboratory services.

                     Recent congressional interest has underscored the importance of
                     having a vigorous audit follow-up system where prompt and effective
                     corrective management actions are essential to improving operations.
                     The audit process, including follow-up, provides management with the
                     opportunity to participate in addressing individual weaknesses and
                     determining the possible applicability of potential vulnerabilities
                     throughout the Departmental complex.


RECOMMENDATIONS      We recommend that the Office of Chief Financial Officer:

                        1. Schedule regular meetings of the DICARC emphasizing audit
                           follow-up issues.


Page 9                                                Recommendations And Comments
                2. In accordance with OMB Circular A-50, provide the Deputy
                   Secretary with a periodic analysis of audit recommendations and
                   field management input to determine trends and system-wide
                   issues facing the Department.

                3. Work with the Office of Field Integration to develop a program
                   involving personnel with functional and technical expertise to
                   verify that corrective actions are taken.

                4. Reassess the roles and responsibilities of the audit liaison
                   function and commit the resources necessary to resolve audit
                   findings and track corrective actions.

                5. Develop specific performance measurements for enhancing the
                   speed and effectiveness of corrective actions called for in audit
                   reports.

             We also recommend that the Assistant Secretary for the Office of
             Nonproliferation and National Security:

                1. Create and implement an action plan to eliminate security
                   clearance investigation backlogs and processing delays.

                2. Work with the Offices of Chief Financial Officer; Defense
                   Programs; Science; Environmental Management; and Nuclear
                   Energy, Science and Technology to conduct a fiscal yearend
                   assessment of the decentralized funding for security clearances.

             Additionally, we recommend that the Assistant Secretary for the Office
             of Environmental Management fully develop and implement an action
             plan to establish a Departmentwide program for reviewing commercial
             analytical laboratories.


MANAGEMENT   In a joint response for management, the CFO agreed with the
REACTION     recommendations for strengthening the follow-up process. He agreed to
             schedule at least one additional DICARC meeting annually, and others if
             necessary, to ensure responsive follow-up actions. Periodic analyses of
             audit recommendations, resolutions, and corrective actions will be
             performed, and systemic problems reported to the Deputy Secretary.
             With regard to verifying that corrective actions are taken, the CFO will
             work with the Office of Field Integration to develop and integrate an


Page 10                                       Recommendations And Comments
                   accountability plan. The Department agreed to initiate efforts to resolve
                   resource and responsibility issues in processing audit findings and
                   tracking corrective actions. Management agreed to review measures
                   and standards in OMB Circular A-50 to determine if revised
                   performance measures are necessary.

                   In the joint management response, the CFO advised that the Secretary
                   recently announced a consolidation of the Department's security
                   functions under a "security czar," which is in the process of being
                   initiated. This structuring and reorganizing will have an effect on the
                   way the Department budgets for and carries out security investigations
                   in the future.

                   The CFO advised in the joint management response that the Office of
                   Environmental Management had initiated a number of actions to address
                   the report findings and was developing a plan to move the laboratory
                   audit process to the private sector. The proposed plan is dependent on
                   adequate funding in Fiscal Year 2001 to allow for this transition.

                   The CFO's comments to this report have been incorporated verbatim in
                   Appendix 5.


AUDITOR COMMENTS   Management comments were generally responsive. However, to fully
                   implement these corrective actions, the Department will have to prepare
                   a detailed plan for each action to ensure implementation. In addition,
                   the DICARC should closely monitor management's progress toward
                   meeting milestones established in the plans. Such progress should also
                   be reported through senior management periodically.




Page 11                                              Recommendations And Comments
Appendix 1

SCOPE         Our follow-up audit was performed between May and December 1998
              to determine if the Department has made progress in correcting
              weaknesses that were previously disclosed through audit. Site visits
              were made to (1) Albuquerque Operations Office and Sandia National
              Laboratories in Albuquerque, New Mexico; (2) Los Alamos National
              Laboratory in Los Alamos, New Mexico; (3) Richland Operations Office
              in Richland, Washington; and (4) Idaho Operations Office in Idaho Falls,
              Idaho.


METHODOLOGY   We reviewed the Department's progress in correcting previously
              reported conditions involving personnel security clearances, personal
              property management, and quality assurance laboratory testing. From
              previously issued OIG audit reports, we identified the following systemic
              conditions and examined these issues on a Departmentwide basis:

              • Personnel Security Clearances:

                     Unnecessary clearances and clearances issued at too high a
                     security level.
                     Processing delays and backlogs of initial and reinvestigation
                     requests.

              • Personal Property Management:

                     Property management systems were not reviewed and approved.
                     Property inventory records were incomplete.
                     Excess personal property was not properly identified, stored, or
                     disposed.

              • Quality Assurance Laboratory Testing:

                     Redundant evaluations were conducted at laboratories.


              To accomplish the audit objective, we:

               •    obtained and reviewed related reports issued by the Office of
                    Inspector General;

               •    reviewed applicable laws and regulations;

               •    obtained and analyzed security clearance materials;

Page 12                                                    Scope And Methodology
           •    reviewed property inventory records and conducted walk-
                throughs of both current and excess personal property; and

           •    conducted a quality assurance survey of analytical laboratories
                used by the Department and contractor representatives.

          We also met with members of the Department's Office of Chief
          Financial Officer, and Offices of Nonproliferation and National
          Security, Environmental Management, and Management and
          Administration. In addition, we met with Departmental and contractor
          employees throughout the audit.

          The audit was conducted in accordance with generally accepted
          Government auditing standards for performance audits and included
          tests of internal controls and compliance with laws and regulations to
          the extent necessary to satisfy the audit objectives. Because our review
          was limited, it would not necessarily have disclosed all deficiencies that
          may have existed at the time of our audit. We did not conduct a
          reliability assessment of computer-processed data because such data
          was not relied upon during the audit.

          An exit conference was waived by management.




Page 13                                                Scope And Methodology
Appendix 2

             ACTIONS ON OFFICE OF INSPECTOR GENERAL AUDIT REPORTS




Note: Recovery of approximately $92 million of the $129,605,294 is dependent on the outcome of
litigation or on agreement by OMB and an appropriation from the Congress.

Source: U.S. Department of Energy's FY 1998 Accountability Report

Page 14
                                                              Actions On Inspector General Reports
Appendix 3
                      PRIOR OFFICE OF INSPECTOR GENERAL REPORTS

Personnel Security Clearances - Since 1988, the Office of Inspector General had issued seven reports
identifying opportunities for the Department to improve its personnel security program. Listed below are
examples of reports that relate to issues included in this report.

• Timeliness in Processing Department of Energy Headquarters Security Clearances, (DOE/IG-0255,
  April 1988). The average time at Headquarters for processing a security clearance was about 10 months,
  with many employees waiting over a year for their clearances. Further, only about a third of that time
  was used in actually conducting the field investigation. The other two-thirds of the processing time was
  used in submitting the application for investigation and in making the access determination once the
  investigation was complete.

• Review of Security Clearances at Bonneville Power Administration, Portland, Oregon, (WR-B-91-5,
  January 1991). Bonneville exceeded the minimum number of clearances for security and operational
  efficiency by designating 242 positions when clearances were not needed and by designating 9 positions
  at a higher clearance level than needed.

• Nevada Operations Office Oversight of Management & Operating Contractor Personnel Security
  Clearances, (WR-O-90-2, March 1990). While the contractor had reduced the number of "Q"
  clearances, four areas within the contractor's operation were identified where further clearance
  reductions could be made if the Manager's directions were fully implemented.

• Security Clearances and Controls at the Department of Energy's Savannah River Plant, (ER-OC-89-03,
  November 1988). The policies and procedures for issuing and controlling site access for permanent
  employees with security clearances, and for ensuring that "Q" sensitive clearances were kept to a
  minimum, were not totally effective.

• Review of DOE's Personnel Security Clearance Program, (DOE/IG-0323, March 1993). Security
  clearances continued to be granted to individuals who did not specifically require access to classified
  material. Furthermore, Departmental offices did not always follow established procedures for clearance
  terminations, initial justifications, and recertification of clearance requirements.

• Richland Operations Office Oversight of Management & Operating Contractor Personnel Security
  Clearances, Richland, Washington, (WR-B-91-1, November 1990). Security clearances were not kept
  to a minimum to meet mission requirements and issued only to those with a need-to-know.

• Review of Contractors' Personnel Security Clearances at the DOE Field Office, Albuquerque, (WR-B-
  91-8, September 1991). Albuquerque granted "Q" level clearances to contractor employees who did not
  need access to classified information to perform official duties.




Page 15                                                                                      Prior Reports
Property Management – Since 1985, the Office of Inspector General had issued 27 reports detailing
problems with the Department's management of personal property. Listed below are examples of reports
that relate to issues included in this report.

• Disposal of Excess Capital Equipment at the Fernald Environmental Management Project – Fernald,
  Ohio, (DOE/IG-0320, February 1993). Westinghouse did not dispose of Government equipment in
  accordance with Federal and DOE regulations, contract terms, and company policy. It also mixed
  contaminated equipment with uncontaminated equipment, disposed of Government equipment without
  DOE notification and approval, and sold Government equipment and scrap materials at less than
  maximum prices.

• Inspection of Management of Excess Personal Property at Rocky Flats, (DOE/IG-0329, May 1993).
  Immediate management attention was needed to properly control, store, and dispose of excess personal
  property, and the current system of operation did not allow for efficient, timely, and cost effective
  management. Current storage and disposal practices were not consistent with contract requirements or
  DOE policies and procedures, and the required property management system had not been approved by
  DOE.

• Department Management of the Ross Aviation, Inc. Contract Aircraft Major Spare Parts Inventory,
  Albuquerque, New Mexico, (WR-B-91-6, July 1991). Approximately $447,000 (acquisition and interest
  carrying costs) of low-use major spare parts inventory was excessive.

• Audit of Property and Equipment at Battelle, Columbus, Ohio – A Contractor to the Office of Civilian
  Radioactive Waste Management, (CR-B-91-01, February 1991). Internal control weaknesses in
  Battelle's property management system contributed to the loss of equipment in Battelle's custody.
  Management had not placed sufficient emphasis on such internal control procedures as property
  identification, recording and accounting procedures for protecting Government property.

• Department of Energy Oversight of Lawrence Livermore National Laboratory Property Management,
  (WR-OC-90-1, February 1990). Livermore was retaining, in unofficial storage, government-owned
  personal property acquired at a cost of about $30 million. Project managers were holding this property
  so that it was unavailable to others. During this holding period, some of it became obsolete and some
  deteriorated.

• Management of Capital and Sensitive Property at the Strategic Petroleum Reserve, (ER-OC-89-22,
  September 1989). Boeing Petroleum Services, Inc., did not identify all sensitive items susceptible for
  personal use or readily convertible to cash in accordance with DOE Property Management Regulations.

• Summary Report on the Department of Energy's Management of Personal Property, (DOE/IG-0344,
  March 1994). Certain Departmental contractors were operating without approved property management
  systems, did not conduct required physical inventories nor properly identify property as excess, and could
  not account for personal property in their possession.



Page 16                                                                                      Prior Reports
• Audit of Personal Property Management at Los Alamos National Laboratory, (DOE/IG-0338,
  December 1993). Los Alamos did not have an efficient and effective personal property management
  system to ensure that personal property was adequately protected, identified, and controlled, and
  Albuquerque did not approve or disapprove Los Alamos' personal property management system
  consistent with Federal and DOE regulations.

• The Inspection of the Management of Excess Personal Property at Sandia National Laboratory,
  Albuquerque, New Mexico, (DOE/IG-0343, March 1994). Immediate management attention was needed
  to properly control, store, and dispose of excess personal property at Sandia National Laboratory.

Quality Assurance Laboratory Testing – Since 1990, the Office of Inspector General had issued six reports
detailing problems with the Department's use of analytical laboratories. Listed below are examples of reports
that relate to issues included in this report.

• Audit of the Department of Energy's Commercial Laboratory Quality Assurance Evaluation Program,
  (DOE/IG-0374, June 1995). Contractors conducted redundant quality assurance evaluations of
  commercial laboratories, did not evaluate others, applied standards inconsistently, produced inconsistent
  results, and did not communicate those results among contractors.

• Audit of the Richland Operations Office Site Characterization Plan, (DOE/IG-0368, March 1995).
  Neither the Department nor the Richland Operations Office evaluated alternatives to ensure that two site
  characterization activities were accomplished in a cost-effective manner. Certain economic factors in
  performed sample analyses were not considered by either the Department or the Richland Operations
  Office.

• Audit of Effectiveness and Efficiency of the Rocky Flats Analytical Services Program, (CR-B-95-01,
  November 1994). The M&O contractor at Rocky Flats did not evaluate alternatives to contractor
  provided analytical services. Instead, the contractor used in-house laboratories to provide analytical
  services when less expensive and more efficient services were available from subcontract laboratories.




Page 17                                                                                       Prior Reports
Appendix 4
                   GUIDANCE ON FEDERAL AGENCY FOLLOW-UP SYSTEMS

Office of Management and Budget Circular A-50 provides the policies and procedures for use by executive
agencies in the audit follow-up process and emphasizes that high priority shall be given to the process. The
Circular specifically establishes the following 11 standards for Federal agency follow-up systems:

   1. Provide for appointment of a top-level audit follow-up official.

   2. Require prompt resolution and corrective actions on audit recommendations. Resolution shall be
      made within a maximum of six months after issuance of a final report or, in the case of audits
      performed by non-Federal auditors, six months after receipt of the report by the Federal Government.
      Corrective action should proceed as rapidly as possible.

   3. Specify criteria for proper resolution and corrective action on audit recommendations, whether
      resolution is in favor of the auditor or an auditee. These criteria should provide for written plans for
      corrective action with specified action dates, where appropriate.

   4. Maintain accurate records of the status of audit reports or recommendations through the entire
      process of resolution and corrective action. Such records shall include appropriate accounting and
      collection controls over amounts determined to be due to the Government.

   5. Provide a means to assure timely responses to audit reports and to resolve major disagreements
      between the audit organization and agency management or contracting officials. The process should
      provide sufficient time to permit resolution to take place within the 6-month limit.

   6. Assure that resolution actions are consistent with law, regulation, and Administration policy; and
      include written justification containing, when applicable, the legal basis for decisions not agreeing
      with the audit recommendation.

   7. Provide for coordinating resolution and corrective action on recommendations involving more than
      one program, agency, or level of Government.

   8. Provide semi-annual reports to the agency head on the status of all unresolved audit reports over six
      months old, the reasons therefor, and a timetable for their resolution; the number of reports or
      recommendations resolved during the period; the amount of disallowed costs; and collections,
      offsets, write-offs, demands for payment and other monetary benefits resulting from audits. These
      reports should include an update on the status of previously reported unresolved audits.

   9. Provide for periodic analysis of audit recommendations, resolution, and corrective action, to
      determine trends and system-wide problems, and to recommend solutions.

   10. Assure that performance appraisals of appropriate officials reflect effectiveness in resolving and
       implementing audit recommendations.


Page 18                                                                                 Follow-up Guidance
  11. Provide for an evaluation of whether the audit follow-up system results in efficient, prompt, and
      proper resolution and corrective action on audit recommendations. The first evaluation will be made
      within one year of the date of the OMB Circular No. A-50, and evaluations will be made periodically
      thereafter.




Page 19                                                                            Follow-up Guidance
Appendix 5




Page 20      Verbatim Management Comments
Page 21   Verbatim Management Comments
Page 22   Verbatim Management Comments
Page 23   Verbatim Management Comments
Page 24   Verbatim Management Comments
                                                                               IG Report No. DOE/IG-0447

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer
     friendly and cost effective as possible. Therefore, this report will be available
        electronically through the Internet at the following alternative addresses:


       U.S. Department of Energy Management and Administration Home Page
                             http://www.hr.doe.gov/ig
                                        or
                              http://www.ma.doe.gov


           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.
